No. ______

In the Supreme Court of the United States
MICHAEL ABATTI AND MIKE ABATTI FARMS, LLC,
Petitioners,

v.
IMPERIAL IRRIGATION DISTRICT,
Respondent.
On Petition for a Writ of Certiorari to the
California Court of Appeal, Fourth Appellate District

PETITION FOR A WRIT OF CERTIORARI
H. CHRISTOPHER BARTOLOMUCCI
Counsel of Record
KATHRYN E. TARBERT
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
THEODORE A. CHESTER, JR.
MUSICK, PEELER & GARRETT LLP
624 South Grand Avenue, #2000
Los Angeles, CA 90017
Counsel for Petitioners

QUESTIONS PRESENTED
Farmers in California’s Imperial Valley, including
petitioners, rely on water delivered by respondent
Imperial Irrigation District to irrigate their lands.
Because this water comes from a federal reclamation
project, its delivery is governed by state and federal
law, the latter of which mandates that “[t]he right to
the use of water acquired under the provisions of this
[Reclamation] Act shall be appurtenant to the land
irrigated, and beneficial use shall be the basis, the
measure, and the limit of the right.” 43 U.S.C. § 372.
In this case, respondent District claims that it is the
sole owner of water rights in the Valley. But in Bryant
v. Yellen, 447 U.S. 352 (1980), a case in which the
District was also a party, the District argued that it
would be “wrong” to conclude that “the District, not
the landowners, owns” the water rights, because
federal law requires those “rights be satisfied with
respect to individual landowners and their lands.”
Brief for Pet’r Imperial Irrigation District, No. 79-435,
at 32-33, 50; Pet. for Cert. No. 79-345, at 16, 17. At
the District’s urging, therefore, this Court concluded
that the water right was “equitably owned by the
beneficiaries to whom the District was obligated to
deliver water,” Bryant, 447 U.S. at 371—namely,
farmers like petitioners.
The questions presented are:
1. Whether the District may abrogate the farmers’
water rights that it previously conceded, and that this
Court recognized, in Bryant.
2. Whether Imperial Valley farmers have federally
protected water rights under § 8 of the Reclamation
Act, 43 U.S.C. § 372.

ii
PARTIES TO THE PROCEEDING
The case caption contains the names of all parties to
the proceeding.

iii
CORPORATE DISCLOSURE STATEMENT
Mike Abatti Farms, LLC, has no parent corporation,
and no publicly held company owns 10% or more of its
stock.

iv
STATEMENT OF RELATED PROCEEDINGS
No other proceedings are “directly related” to the
case in this Court for purposes of this Court’s Rule
14(b)(iii).

v
TABLE OF CONTENTS
QUESTIONS PRESENTED …………………………... i
PARTIES TO THE PROCEEDING ………………..… ii
CORPORATE DISCLOSURE STATEMENT ……… iii
STATEMENT OF RELATED PROCEEDINGS …… iv
TABLE OF AUTHORITIES ………………………... viii
PETITION FOR WRIT OF CERTIORARI ………….. 1
OPINIONS BELOW ……………………………………. 1
JURISDICTION ………………………………………… 1
STATUTORY PROVISIONS INVOLVED …………... 1
INTRODUCTION ………………………………………. 2
STATEMENT OF THE CASE ………………………… 3
A.

Farming in California’s Imperial Valley …….. 3

B.

Federal Reclamation Statutes ………………… 4

C.

The Bryant Litigation ………………………..… 6
1. Lower Court Decisions ……………………… 7
2. The District’s Petition for Certiorari
and Briefing on the Merits ………………… 8
3. This Court’s Decision ……………………… 10

D.

The District’s 2013 Equitable Distribution
Plan and the Current Litigation …………….. 11
1. The Superior Court’s Decision …………… 11
2. The Court of Appeal’s Decision ………….. 13

vi
TABLE OF CONTENTS (cont’d)
REASONS FOR GRANTING THE PETITION ….....15
I.

The Decision Below Conflicts With
Several Decisions of This Court That
Bind the Court of Appeal and the
District. ………………………….……………… 16
A. The Decision Below Conflicts With
Bryant, Which Held at the District’s
Urging That Imperial Valley
Farmers Have Federally Protected
Water Rights. …….………………………… 17
B. The District’s Arguments in This
Case Are Precluded by Bryant. ………….. 20
C. The Opinion Below Conflicts With
Other Decisions of This Court
Holding That Landowners, Not the
Government, Own Water Rights
Under § 8 of the Reclamation Act. ……... 26

II.

The Opinion Below Conflicts With
Other Appellate and Regulatory
Decisions, Including Precedent From
the Home Circuit of the State Court
Below. …………………………………………… 29
A. Appellate Decisions ……………………….. 29
B. The Decision Below Conflicts With
the Position Taken by Officials in
the Department of the Interior. …………. 31

vii
TABLE OF CONTENTS (cont’d)
III. Whether Farmers in the Imperial
Valley Possess Water Rights Is
an Exceptionally Important Question. ……… 32
CONCLUSION ………………………………………… 34
APPENDICES
Appendix A
Opinion of the Court of Appeal,
Fourth Appellate District, Abatti
v. Imperial Irrigation District (July
16, 2020) ……..……………………………. App. 1a
Appendix B
Decision of the Superior Court of
the State of California, County
of Imperial, Abatti v. Imperial
Irrigation
District
(Aug.
15,
2017) …………………………………….. App. 115a
Appendix C
Denial of Petition for Review of the
Supreme Court of California, Abatti
v. Imperial
Irrigation District
(Oct. 28, 2020) ……………………….… App. 126a
Appendix D
Imperial
Irrigation
District,
Equitable Distribution Plan (Oct. 28,
2013) …….............................................. App. 127a

viii
TABLE OF AUTHORITIES
Cases
Am. Tradition P’ship v. Bullock,
567 U.S. 516 (2012) ………………………………. 16
Arizona v. California,
373 U.S. 546 (1963) ……………………… 4, 5, 6, 19
Arizona v. California, 376 U.S. 340 (1964) …………. 6
Arizona v. California,
439 U.S. 419 (1979) ……………………….……. 6, 20
Arizona v. California, 460 U.S. 605 (1983) ………… 32
Bryant v. Yellen, 447 U.S. 352 (1980) ………….. passim
California v. United States,
438 U.S. 645 (1978) …………………………… 19, 20
California v. Yellen, 447 U.S. 352 (1980) ……………. 2
El Vocero de Puerto Rico v. Puerto Rico,
508 U.S. 147 (1993) ……………………………….. 16
Heck v. Humphrey, 512 U.S. 477 (1994) …………… 25
Holguin v. Elephant Butte Irrigation Dist.,
575 P.2d 88 (N.M. 1977) …………………………... 30
Ickes v. Fox, 300 U.S. 82 (1937) ………… 16, 26, 27, 31
Imperial Irrigation Dist. v. Yellen,
447 U.S. 352 (1980) …………………………………. 2
Israel v. Morton, 549 F. 2d 128 (9th Cir. 1977) …… 19
Jackson v. Cty. of Los Angeles,
60 Cal. App. 4th 171 (1997) ……………………… 21

ix
TABLE OF AUTHORITIES (cont’d)
Cases (cont’d):
Lugar v. Edmondson Oil Co.,
457 U.S. 922 (1982) ………………………………... 16
Nebraska v. Wyoming,
325 U.S. 589 (1945) ………………………….. passim
Nelson v. Belle Fourche Irrigation Dist.,
845 F. Supp. 1361 (D.S.D. 1994) ………………... 33
Nevada v. United States,
463 U.S. 110 (1983) …………………………. passim
New Hampshire v. Maine,
532 U.S. 742 (2001) ………………………….. passim
Semtek Int’l Inc. v. Lockheed Martin Corp.,
531 U.S. 497 (2001) …………………………… 25, 26
Sterling v. Constantin, 287 U.S. 378 (1932) ……….. 20
Truck Ins. Exch. v. Mid-Continent Cas. Co.,
320 S.W.3d 613 (Tex. App. 2010) …………... 25, 26
Truckee-Carson Irrigation Dist. v.
Sec’y of the Dep’t of the Interior,
742 F.2d 527 (9th Cir. 1984) ………………... 29, 30
United States v. Bell,
602 F.3d 1074 (9th Cir. 2010) …………………… 29
United States v. Imperial Irrigation Dist.,
559 F.2d 509 (9th Cir. 1977) ……………………… 8
United States v. Imperial Irrigation Dist.,
322 F. Supp. 11 (S.D. Cal. 1971) …………………. 7
United States v. Mead Corp.,
533 U.S. 218 (2001) ……………………………….. 31

x

TABLE OF AUTHORITIES (cont’d)
Statutes and Rules
28 U.S.C. § 1257 …………………………………………. 1
Reclamation Act § 8,
43 U.S.C. § 372, 32 Stat. 390 (1902) ……… passim
Omnibus Adjustment Act,
43 U.S.C. § 423e (1926) ………………………….. 5, 6
Boulder Canyon Project Act,
43 U.S.C. § 617, et seq., 45 Stat. 1057
(1928) ……………………………..…………… passim
Colorado River Compact (1922)
70 CONG. REC. 324 (1928) ……………… 4, 5, 20, 22
S. Ct. Order (Mar. 19, 2020) …………….…………….. 1
S. Ct. Rule 10(c) …………………………………….….. 16
Cal. Water Code Ann. § 22250 ………………………. 18
Other Authorities
Benson, Reed D., Whose Water Is It?
Private Rights and Public Authority
Over Reclamation Project Water,
16 VA. ENVTL. L.J. 363 (1997) ………………….... 34
Meadows, Robin, Research News: UC
Desert Research and Extension Center
Celebrates 100 Years, CALIFORNIA
AGRICULTURE, No. 4, Oct.-Dec. 2012 ….……... 33

xi
TABLE OF AUTHORITIES (cont’d)
Other Authorities (cont’d)
Memorandum from David Nawi & Lynn
Peterson, Reg’l Solics., U.S. Dep’t of
Interior, to Reg’l Dir., U.S. Bureau of
Reclamation,
Mid-Pacific
Reg.,
Sacramento, Cal., et al. (Jan. 9, 1997) ………. 31
NAT’L AGRIC. STATISTICS SERV., U.S. DEP’T
OF AGRIC.,
[2017] 1 CENSUS OF
AGRICULTURE, CALIFORNIA 246 (Apr.
2019) ………………………………………………… 32
OFF. OF THE AGRIC. COMM’R SEALER OF
WEIGHTS & MEASURES, IMPERIAL CTY.
CAL., 2018 AGRIC. CROP & LIVESTOCK
REP. 21 (Sep. 24, 2019) .………………………….. 33

PETITION FOR WRIT OF CERTIORARI
Petitioners Michael Abatti and Mike Abatti Farms,
LLC, respectfully petition for a writ of certiorari to
review the judgment of the California Court of Appeal,
Fourth Appellate District, in this case.
OPINIONS BELOW
The California Court of Appeal’s opinion is reported
at 52 Cal. App. 5th 236. App. 1a-114a. The decision
of the Superior Court for Imperial County is not
reported. App. 115a-125a.
JURISDICTION
The judgment of the Court of Appeal was entered on
July 16, 2020. App. 1a. The California Supreme Court
denied a timely petition for review on October 28,
2020. App. 126a. This Court has jurisdiction under
28 U.S.C. § 1257; S. Ct. Order of Mar. 19, 2020.
STATUTORY PROVISIONS INVOLVED
Section 8 of the Act of June 18, 1902, 32 Stat. 390,
known as the Reclamation Act, provides in part: “The
right to the use of water acquired under the provisions
of this Act shall be appurtenant to the land irrigated,
and beneficial use shall be the basis, the measure, and
the limit of the right.” 43 U.S.C. § 372.
Section 6 of the Boulder Canyon Project Act, 45 Stat.
1057, provides in part: “The dam and reservoir
provided for by section 617 of this title shall be used:
First, for river regulation, improvement of navigation,
and flood control; second, for irrigation and domestic
uses and satisfaction of present perfected rights in
pursuance of Article VIII of said Colorado River
compact; and third, for power.” 43 U.S.C. § 617e.

2
INTRODUCTION
The issue in this case is whether farmers in the
Imperial Valley have federally protected water rights.
In briefing before the Court in Bryant v. Yellen, 447
U.S. 352 (1980),1 the District asserted that they did
and expressly disclaimed ownership of the water
rights itself: “[T]he District is merely the trustee of
water rights for landowners, who are the beneficial
owners, and their beneficial interest is a
constitutionally protected property right which is
appurtenant to the land irrigated.” Brief for Pet’r
Imperial Irrigation District, No. 79-435, at 33 (“Bryant
Pet’r Br.”).
In 2013, however, the District adopted an “Equitable
Distribution Plan” that nullified the water rights of
land-owning farmers, including petitioner Michael
Abatti and his family. When the Abattis challenged
the 2013 EDP as a violation of those rights, the
District asserted that landowners have no water
rights at all.
The trial court rejected that about-face, confirming
that—as this Court held in Bryant—Abatti and other
farmers own the water rights that are appurtenant to
their lands under federal law. App. 118a; see Bryant,
447 U.S. at 371; 43 U.S.C. § 372. The California Court
of Appeal reversed. It held that the District is the “sole
owner” of water rights in the Valley, and farmers do
“not [have] an appurtenant water right” but rather are
1 The Court’s opinion reported at 447 U.S. 352 decided three
cases: Bryant v. Yellen, No. 79-421; California v. Yellen, No. 79425; and Imperial Irrigation District v. Yellen, No. 79-435. The
opinion is referred to herein as Bryant, following the citation used
by the courts below.

3
entitled merely to “water service” that is subject to
modification by the District at its discretion. App. 12a,
30a.
This Court should grant the petition and reverse the
decision below, which is in conflict not only with
Bryant but also other decisions of this Court, the
Ninth Circuit, the New Mexico Supreme Court, and
the Department of the Interior. Each of these
authorities has recognized that § 8 of the Reclamation
Act confers water rights on landowners, not irrigation
districts or other water managers. And as a result of
the conflict between the Court of Appeal and the Ninth
Circuit—the home circuit for California—water rights
in that state now depend entirely on whether they are
adjudicated in a state or federal court.
Such
uncertainty is intolerable.
Review is also warranted given the exceptional
importance of water rights in the West. See Bryant,
447 U.S. at 366. The decision below ignores federal
law, negates federally protected rights, and threatens
billions of dollars of agriculture. It should be reversed.
STATEMENT OF THE CASE
A. Farming in California’s Imperial Valley
Petitioner Abatti’s family “has been farming in the
Imperial Valley for over 100 years.” App. 7a. He and
his family own or lease and farm approximately 7,000
acres. Admin. App. 2214. They grow a variety of
crops, including grains, alfalfa, broccoli, sugar beets,
and melons. Id. Like other farms in the area, the
Abattis’ farm is entirely dependent upon the Colorado
River for irrigation. That is because the Imperial
Valley “is an arid desert in its natural state.” Bryant,
447 U.S. at 356.

4
Respondent Imperial Irrigation District is
“responsible … for the diversion, transportation, and
distribution of water from the Colorado River to the
Imperial Valley.” Id. at 357 n.3. In California, an
irrigation district is a public corporation “empowered
to distribute and otherwise administer water for the
beneficial use of its inhabitants.” Id. at 356 n.1. The
District delivers water to users in the Valley pursuant
and subject to state and federal law, including § 8 of
the Reclamation Act, 43 U.S.C. § 372.
B. Federal Reclamation Statutes
Irrigation began in the Imperial Valley in 1901,
“using water diverted from the Colorado River.”
Bryant, 447 U.S. at 356. As time went on, however, it
became clear that “[t]he natural flow of the Colorado
was too erratic … and the engineering and economic
hurdles too great for small farmers, larger groups, or
even States” to build the infrastructure necessary to
reclaim all surrounding arid lands.
Arizona v.
California, 373 U.S. 546, 553 (1963). “[T]he job was so
big that only the Federal Government could do it.” Id.
at 554.
1. In 1928, therefore, Congress enacted the Boulder
Canyon Project Act, 43 U.S.C. § 617 et seq. The Project
Act, which took effect in 1929, implemented and
ratified the Colorado River Compact that had been
signed in 1922 by seven states located in the Colorado
River Basin. Id.2 The Act allocated water among some
of these states and authorized the construction of the
Hoover Dam and other works along the river. Bryant,
2 See Colorado River Compact (1922), 70 CONG. REC. 324 (1928),
https://www.usbr.gov/lc/region/g1000/pdfiles/crcompct.pdf.

5
447 U.S. at 357-58.
Given the resources the federal government devoted
to the Basin, “[i]t was only natural that the United
States ... would want to make certain that the waters
were effectively used.” Arizona, 373 U.S. at 589.
Congress accordingly mandated that “[t]he right to the
use of water acquired under the provisions of [the
Reclamation] Act shall be appurtenant to the land
irrigated, and beneficial use shall be the basis, the
measure, and the limit of the right.” 43 U.S.C. § 372.
Congress additionally “forbade delivery of reclamation
project water to any irrigable land held in private
ownership by one owner in excess of 160 acres.”
Bryant, 447 U.S. at 360; see Omnibus Adjustment Act
of 1926, 43 U.S.C. § 423e (“the 1926 Act”).
Congress further instructed that federal works
under the Project Act were to be used, “[f]irst, for river
regulation, improvement of navigation, and flood
control; second, for irrigation and domestic uses and
satisfaction of present perfected rights in pursuance of
Article VIII of [the] Colorado River compact; and third,
for power.” 43 U.S.C. § 617e. Article VIII of that 1922
compact guaranteed that “‘[p]resent perfected rights
to the beneficial use of waters of the Colorado River
System are unimpaired by this compact,’” thereby
addressing “the concern of the farmers of Imperial
Valley that … their existing water rights might be
impaired by the Compact allocation.” Bryant, 447 U.S.
at 357 & n.4 (quoting Article VIII).
2. The Court has applied these statutes in several
cases. “In 1952 the State of Arizona invoked the
original jurisdiction of this Court by filing a complaint
against the State of California and seven of its public

6
agencies,” including the District. Arizona, 373 U.S. at
550-51 & n.2 (footnote omitted). Three other states
(Nevada, New Mexico, and Utah) and the United
States later became parties. Id. at 551. The dispute
in the case concerned “how much water each State has
a legal right to use out of the waters of the Colorado
River and its tributaries.” Id.
A “primary aspect of the case was the recognition
given to present perfected [water] rights[.]” Bryant,
447 U.S. at 364. The Court defined a perfected right
as “a water right acquired in accordance with state
law, which right has been exercised by the actual
diversion of a specific quantity of water that has been
applied to a defined area of land or to definite
municipal or industrial works.” Arizona v. California,
376 U.S. 340, 341 (1964) (emphasis added). In 1979,
this Court issued a supplemental decree in which it
determined that the “present perfected rights” within
the state of California included the following:
The Imperial Irrigation District in annual
quantities not to exceed (i) 2,600,000 acre-feet of
diversions from the mainstream or (ii) the quantity
of mainstream water necessary to supply the
consumptive use required for irrigation of 424,145
acres and for the satisfaction of related uses,
whichever of (i) or (ii) is less, with a priority date of
1901.
Arizona v. California, 439 U.S. 419, 420-21, 429
(1979).
C. The Bryant Litigation
The Bryant litigation began after the Department of
the Interior attempted to enforce the 160-acre limit of
the 1926 Act, 43 U.S.C. § 423e, on the Imperial Valley.

7
Bryant, 447 U.S. at 360. For decades, the Secretary of
the Interior had taken the position that this limit did
not apply to Valley farmers who already had a
perfected water right under Article VIII of the
Colorado River Compact:
“These lands, having
already a water right, are entitled to have such vested
right recognized without regard to the acreage
limitation mentioned.” Bryant, 447 U.S. at 362
(quoting 1933 letter of Secretary Ray Lyman Wilbur).
In 1964, the Interior Department reversed that
position and sued the District “for a declaratory
judgment that the excess-acreage limitation of [the
1926 Act, 43 U.S.C. § 423e] applied to all private lands
in the Valley.” 447 U.S. at 365. Several landowners
“intervene[d] as defendants representing the certified
class of all landowners owning more than 160 acres.”
Id.
1. Lower Court Decisions
The district court ruled against the federal
government, holding the 160-acre limitation
inapplicable. See United States v. Imperial Irrigation
Dist., 322 F. Supp. 11 (S.D. Cal. 1971), vacated and
remanded, 559 F.2d 509 (9th Cir. 1977), rev’d in part
and vacated in part, 447 U.S. 352 (1980). On appeal,
the Ninth Circuit ruled against the District and the
landowner class, rejecting the argument that § 6 of the
Project Act protected the “present perfected rights” of
Valley farmers.
The Ninth Circuit’s ruling turned on its analysis of
the water rights at stake. The court believed that “the
perfected rights in Imperial Valley were owned by and
would be adjudicated to the District, not to individual
landowners, who were merely members of a class for

8
whose benefit the water rights had been acquired and
held in trust.” Bryant, 447 U.S. at 369. The court
concluded that “the users of water … do not possess
rights to the water that can be considered private
property in the ordinary sense of the words,” and
“[l]andowners within an irrigation district do not
possess as part of their freehold estates a
proportionate ownership in the water rights owned by
the irrigation district.” United States v. Imperial
Irrigation Dist., 559 F.2d 509, 529 (9th Cir. 1977),
rev’d in part and vacated in part, 447 U.S. 352 (1980).
Because the District would continue to receive the
same allotment of water regardless whether
individual landowners were required to reduce their
holdings to 160 acres, the court concluded that
perfected water rights would not be impaired by
application of the limit to individual landowners. 559
F.2d at 529-30.
2. The District’s Petition for Certiorari and
Briefing on the Merits
Following the Ninth Circuit’s decision, the District
filed a petition for certiorari in which it argued that
landowning farmers, and not the District itself, own
the water rights in the Valley. The District asserted
that the Ninth Circuit’s decision was based on
a misunderstanding of the nature of water rights
“owned” by irrigation districts in California.
Although it is true that the District holds the legal
title to the water rights, it holds this title in trust
for the landowners, who own the beneficial
interest. It is the individual landowner—not the
District—who puts the water to beneficial use.

9
Pet. for Cert. in No. 79-435, at 16 (“Bryant Pet.”). As
a result, the District argued, in California “the Project
Act’s mandate that present perfected rights be
satisfied requires that … such rights be satisfied with
respect to individual landowners and their lands.” Id.
at 17.
In its merits brief, the District again argued that the
farmers, not the District, own the water rights:
The Court of Appeals argues that the District, not
the landowners, owns the decreed present
perfected rights, and, therefore, the District can
“redistribute” the water that is taken away from
excess lands. This contention is quite untenable,
both factually and legally. … [A]s a matter of
California law, the District is merely the trustee of
water rights for landowners, who are the beneficial
owners, and their beneficial interest is a
constitutionally protected property right which is
appurtenant to the land irrigated. Section 6 [of the
Project Act] directs that these rights be satisfied;
there is no authority for taking them. As a matter
of federal law, § 8 of the Reclamation Act of 1902
stipulates that rights to use of water supplied
through federal works shall be appurtenant to the
land irrigated ….
Bryant Pet’r Br. 32-33 (emphasis added).
The District further asserted that the court of
appeals was “wrong” in concluding that “that the
Secretary could satisfy § 6 by delivering all of the
water subject to the District’s present perfected rights
to the District, and that the District could then
withhold water from Excess lands and redistribute it
to non-excess lands[.]” Id. at 50. The District observed

10
that “Section 6 of the Project Act, in requiring the
‘satisfaction’ of present perfected rights, and Article
VIII of the Compact, in providing that present
perfected rights are ‘unimpaired,’ expressly determine
… priority.” Reply Brief for Petitioner Imperial
Irrigation District, No. 79-435, at 17 (“Bryant Reply”).
3. This Court’s Decision
At the District’s urging, therefore, this Court
rejected as “unpersuasive” the Ninth Circuit’s ruling
that, “because the perfected rights in Imperial Valley
were owned by and would be adjudicated to the
District, not to individual landowners,” the Secretary
could apply the acre limitation to those landowners.
Bryant, 447 U.S. at 369. The Court held that, “as a
matter of state law, not only did the District’s water
right entitle it to deliver water to the farms in the
District regardless of size, but also the right was
equitably owned by the beneficiaries to whom the
District was obligated to deliver water.” Id. at 371
(emphasis added); see also id. at 367 n.17 (describing
Secretary’s options for cancelling water right
“attaching to the land”).
This Court also concluded that, “[w]hile the source of
present perfected rights is to be found in state law, the
question of whether rights provided by state law
amount to present perfected rights within the
meaning of § 6 is obviously one of federal law.” Id. at
371 n.22. Because those rights are protected by
federal law, the District had no grounds to deny water
to farmers possessing those rights unless federal law
required it to do so. As the Court explained, there was
no suggestion that “the District, absent some duty or
disability imposed by federal law, could have

11
rightfully denied water to individual farmers owning
more than 160 acres.” Id. (emphasis added). “The
District is obligated not only to continue delivery, but
also to apportion water distributed for irrigation
purposes ratably to each landowner in accordance
with his share of the total assessments in the District.”
Id. at 371 n.23.
D. The District’s 2013 Equitable Distribution
Plan and the Current Litigation
After this Court’s decision in Bryant, the District
continued to manage and distribute water to Valley
farmers, without any set plan, for decades. Then, in
October 2013, the District adopted what it called an
“Equitable Distribution Plan.” App. 127a-141a.
The EDP was a permanent water allocation scheme,
but there was nothing equitable about it. Simply put,
the EDP nullified the water rights of the Abattis and
all other Valley farmers, transferred their rights to
other users without compensation, and established a
water priority scheme under which agricultural users
received the lowest priority (i.e., no priority at all). All
non-agricultural water users were entitled to water
based on their past usage. Farmers received no such
guarantee. Petitioner Abatti alleged that, under the
2013 EDP, he stood to “lose as much as 50% of the
required water for some of the acres of farm land that
[he] already has financed or planted[.]” Admin. App.
748.
1. The Superior Court’s Decision
In November 2013, the Abattis challenged the
District’s 2013 EDP in the Superior Court for Imperial
County. The Abattis sought a declaratory judgment

12
and a writ of mandamus to compel the District to
repeal the 2013 EDP and replace it with a new plan.
In August 2017, the Superior Court issued a decision
granting the requested relief. App. 115a-125a. In its
conclusions of law, the court ruled that farmers, not
the District, owned the water rights at issue:
A trust exists under which Respondent District
holds mere legal title to the water rights and the
users own the equitable and beneficial interest in
the water rights. The farmers’ equitable and
beneficial interest in the water rights is
appurtenant to their lands and is a constitutionally
protected property right.
App. 118a (citing Bryant, 447 U.S. at 371 n.23).
Among its findings of fact, the Superior Court
determined that the Abatti family had perfected water
rights based on its beneficial use of the water for more
than a century: “The beneficial use of Colorado River
water in the Imperial Valley in the early 1900s by
farmers, including Michael Abatti’s familial ancestors,
perfected water rights Respondent District holds in
trust.” App. 120a-121a. The court also ruled that,
because the farmers’ water rights are protected
property rights, the District cannot take them
“without appropriate consideration.” App. 118a.
Turning its attention to the EDP, the Superior Court
found that the “2013 EDP is not equitable because it
disadvantages farmers, who should not be treated
differently and with a lesser priority than other, nondomestic, classes of water users[.]” App. 122a. The
court observed that “the 2013 EDP apportions water
to municipal users, industrial users, feed lots, dairies,
fish farms, and environmental water users before

13
farmers” and “does not limit the amounts of water that
can be consumed by” any of those users. App. 121a,
122a. Furthermore, “[t]he 2013 EDP allows water to
be provided to new water users, such as new industrial
and environmental users, which, in a period of
shortfall, would disproportionately affect existing
famers.” App. 122a. “[T]his prioritization puts those
other water users ahead of farmers.” Id.
Finding the EDP to be unfair, inequitable, contrary
to law, and an abuse of discretion, the court granted
the Abattis a writ of mandamus commanding the
District to repeal the EDP and declared that the
District lacked authority to “adopt any other equitable
distribution plan that prioritizes” or “otherwise
favors” “certain classes of water users, other than
domestic, ahead of farmers and other agricultural
users.” App. 124a.
2. The Court of Appeal’s Decision
The Court of Appeal reversed the Superior Court’s
judgment almost in its entirety. The court framed the
dispute between the Abattis and the District as
follows:
The parties’ fundamental disagreement pertains to
whether the farmers possess water rights that
entitle them to receive the amounts of water that
they have historically used to irrigate their crops,
amounting to a priority over other non-domestic
users, or instead, whether their interest is a right
to water service that is subject to modification by
the District.
App. 11a.

14
The court held that “the District is the sole owner of
appropriative water rights to Colorado River water in
the Imperial Valley[.]” App. 12a. Farmers have “an
appurtenant right to service, not an appurtenant
water right,” App. 30a, and “the District retains
discretion to modify [that] service” at will. App. 5a.
The Court of Appeal also rejected the Abattis’
argument that, based on the District’s contrary
contentions in Bryant, the District should be judicially
estopped from claiming that it, and not landowning
farmers, owns the water rights in the Valley. App.
110a-112a
The Court of Appeal went on to reverse the Superior
Court’s judgment insofar as it had favored the Abattis
in “all” respects except one.3 App. 6a, 80a. The Court
of Appeal concluded that “the District did err in the
manner in which it prioritizes users,” and “[i]t was not
reasonable for the District to adopt a permanent,
annual apportionment that applies few, if any, limits
on most categories of users and effectively places the
burden of shortages almost entirely on farmers.” App.
39a, 54a.
Accordingly, the Court of Appeal directed the
Superior Court “to enter a new and different
judgment: (1) granting the petition on the sole ground
that the District’s failure to provide for equitable
apportionment among categories of water users
constitutes an abuse of discretion; and (2) denying the

3 The Court of Appeal affirmed the Superior Court’s judgment
insofar as it had dismissed the Abattis’ claims for breach of
fiduciary duty and an unlawful taking. App. 114a.

15
petition on all other grounds, including as to
declaratory relief.” App. 114a.
The Abattis petitioned the California Supreme Court
to review the Court of Appeal’s decision. The Abattis
argued, among other things, that the Court of Appeal’s
decision conflicts with Bryant and other federal
decisions, and that, given the District’s arguments in
Bryant, the District “was and is judicially estopped to
argue Farmers possessed no such [appurtenant water]
rights.” Pet. for Rev. 19, 24 & n.7, Abatti v. Imperial
Irrigation Dist., No. S264093 (Cal. 2020).
The California Supreme Court denied the Abattis’
petition on October 28, 2020. App. 126a.
REASONS FOR GRANTING THE PETITION
The opinion below presents multiple conflicts and
implicates critical issues of water rights that warrant
this Court’s review. First and foremost, the decision
conflicts with Bryant v. Yellen, 447 U.S. 352 (1980), in
which this Court held—at the behest of respondent
District itself—that Imperial Valley farmers have
water rights that are appurtenant to their lands and
protected under federal law. That decision binds the
Court of Appeal and the District, which should have
been judicially estopped from taking a contrary
position in this case.
Next, the Court of Appeal’s decision conflicts with
other decisions of this Court, the Ninth Circuit, the
New Mexico Supreme Court, and an opinion from the
Department of the Interior. Those authorities also
recognize that, under § 8 of the Reclamation Act,
water rights are owned not by the federal government
or an irrigation district but by the landowner who uses
the water. Because the Ninth Circuit is the home

16
circuit for California, water rights in that state now
depend entirely on whether they are considered by a
state or federal court. Such uncertainty is intolerable,
particularly in the context of water rights.
Finally, review is warranted because the question
whether the Abattis and other Imperial Valley
farmers have federally protected water rights is
exceptionally important. See Bryant, 447 U.S. at 366.
This is an excellent vehicle for considering that issue
and resolving the conflicts presented by the decision
below.
I.

The Decision Below Conflicts With Several
Decisions of This Court That Bind the Court
of Appeal and the District.

To begin, the Court should grant the petition
because the California Court of Appeal’s opinion
conflicts with this Court’s decision in Bryant, 447 U.S.
352, as well Ickes v. Fox, 300 U.S. 82 (1937); Nebraska
v. Wyoming, 325 U.S. 589 (1945); and Nevada v.
United States, 463 U.S. 110 (1983). See S. Ct. R. 10(c);
see, e.g., Am. Tradition P’ship v. Bullock, 567 U.S. 516,
516-17 (2012) (per curiam) (granting certiorari and
summarily reversing when arguments supporting
judgment below “either were already rejected in [a
prior decision of the Court], or fail[ed] to meaningfully
distinguish that case”); El Vocero de Puerto Rico v.
Puerto Rico, 508 U.S. 147, 149 (1993) (per curiam)
(granting certiorari and summarily reversing when
“the decision below is irreconcilable with [a prior
decision of this Court]”); Lugar v. Edmondson Oil Co.,
457 U.S. 922, 926 (1982) (granting certiorari
“[b]ecause [the lower court’s] construction” of a

17
statutory requirement “appears to be inconsistent
with prior decisions of this Court”).
A. The Decision Below Conflicts With Bryant,
Which Held at the District’s Urging That
Imperial Valley Farmers Have Federally
Protected Water Rights.
1. As explained above, this is not the first time the
issue of Imperial Valley water rights has come before
the Court. In Bryant, this Court—at the request of the
District itself—reversed a Ninth Circuit decision
holding that Imperial Valley farmers do not possess
water rights appurtenant to their lands. This Court
explained that “as a matter of state law, not only did
the District’s water right entitle it to deliver water to
the farms in the District regardless of size, but also the
right was equitably owned by the beneficiaries to whom
the District was obligated to deliver water.” Bryant,
447 U.S. at 371 (emphasis added).
The opinion below cannot be squared with that
ruling. While this Court held in Bryant that the
“water right” was “equitably owned by” the
landowners and “attach[ed] to the land,” 447 U.S. at
367 n.17, 371, the California Court of Appeal ruled
that “the District is the sole owner of appropriative
water rights to Colorado River water in the Imperial
Valley,” App. 12a, and farmers are entitled only to
discretionary “water service,” “not an appurtenant
water right.” App. 30a.
In reaching those conclusions, the Court of Appeal
misread this Court to have “rejected th[e] contention”
that individual owners are “entitle[d] to a specific
proportion of water.” App. 112a; see App. 29a (citing
Bryant for the proposition that “no farm in the District

18
has ‘permanent right to any specific proportion of the
water’”). This Court said no such thing. The Court did
not deny that “[i]t may be true ... that no individual
farm in the District has a permanent right to any
specific proportion of the water[.]” Bryant, 447 U.S. at
371.
But the Court went on to conclude that
“landowners have a legally enforceable right,
appurtenant to their lands, to continued service by the
District,” which the Court explained was “obligated
not only to continue delivery, but also to apportion
water distributed for irrigation purposes ratably to
each landowner in accordance with his share of the
total assessments in the District.” Id. at 371 n.23
(citing Cal. Water Code Ann. § 22250).
The Court of Appeal dismissed this Court’s
discussion of the District’s obligations as “not …
impacting [this Court’s] larger analysis” and based on
a since-modified law. App. 27a n.14. But the
continued delivery and ratable apportionment of
water recognized by this Court were critical to
fulfilling the perfected rights that the Court declared
must be satisfied under federal law. See Bryant, 447
U.S. at 364 (recognizing “the requirement to satisfy
present perfected rights, a matter of intense
importance to those who had reduced their water
rights to actual beneficial use at the time the [Project]
Act became effective”) (internal quotation marks
omitted). This Court recognized that there was no
suggestion that the District, “absent some duty or
disability imposed by federal law, could have
rightfully denied water to individual farmers owning
more than 160 acres.” Id. at 371 (emphasis added).

19
Furthermore, this Court rejected as “unpersuasive”
the Ninth Circuit’s view that “[i]ndividual farmers …
had no right … to a particular proportion of the
District’s water” and so the District could “reallocat[e]
… the water among those eligible to receive it.” Id. at
369. This Court explained that the water rights were
acquired “by the actual diversion of a specific quantity
of water and its application to a defined area of land.”
Id. at 369-70 (emphasis added). Because the water
rights attached to “the defined quantity and area of
land” irrigated with the water, id. at 370, the District
could not simply reallocate the water to other users.
2. The Court of Appeal lacked the authority to
disregard this Court’s decision and the demands of the
Reclamation Act. “Where Congress has ... exercised
its constitutional power over waters, courts have no
power to substitute their own notions of an ‘equitable
apportionment’ for the apportionment chosen by
Congress.” Arizona v. California, 373 U.S. 546, 565
(1963).
Project water ... would not exist but for the fact that
it has been developed by the United States. It is
not there for the taking (by the landowner subject
to state law), but for the giving by the United
States. The terms upon which it can be put to use,
and the manner in which rights to continued use
can be acquired, are for the United States to fix.
Israel v. Morton, 549 F.2d 128, 132-33 (9th Cir. 1977).
“Congress did not intend to relinquish total control
of the actual distribution of the reclamation water to
the States.” California v. United States, 438 U.S. 645,
668 n.21 (1978). “Congress provided in § 8 itself that
the water right must be appurtenant to the land

20
irrigated and governed by beneficial use.”
Id.
Congress thus sought to avoid the outcome of this
case, where the descendants of farmers who risked life
and limb to irrigate the land themselves in the early
1900s, and whose agreement was critical to the
creation of the Colorado River Compact, were stripped
of their rights, with their water distributed to Districtpreferred users at the bottom of the federal priority
list. Compare App. 37a-39a (concluding the District
had discretion to distribute water to all users,
including industrial users) with Project Act, 43 U.S.C.
§ 617e (prioritizing “domestic uses”) and Arizona v.
California, 439 U.S. 419, 429 (1979) (declaring present
perfected water rights to the Imperial Valley “for
irrigation of 424,145 acres and for the satisfaction of
related uses”) (emphasis added). The decision below
cannot be reconciled with that law or the Court’s
interpretation of it in Bryant.
B. The District’s Arguments in This Case Are
Precluded by Bryant.
1. The District, too, is bound by this Court’s decision
in Bryant. As an initial matter, the District was a
party to that case and must abide by it. It is “obviously
untenable” for a state official to issue an order
“overriding all conflicting rights of property”
recognized by a federal court judgment. Sterling v.
Constantin, 287 U.S. 378, 397-98 (1932). Under the
doctrine of issue preclusion, a prior judgment
“foreclose[s] successive litigation of an issue of fact or
law actually litigated and resolved in a valid court
determination essential to the prior judgment,
whether or not the issue arises on the same or a
different claim.” New Hampshire v. Maine, 532 U.S.

21
742, 748-49 (2001). As explained above, this Court has
already held that the water rights in the Imperial
Valley belong to the individual landowners and run
appurtenant to their land.
2. In addition, given its contrary arguments in
Bryant, the District should now be equitably barred
under the doctrine of judicial estoppel from asserting
that farmers lack appurtenant water rights and are
entitled only to discretionary service.
See New
Hampshire, 532 U.S. at 749-50. “[W]here a party
assumes a certain position in a legal proceeding, and
succeeds in maintaining that position, he may not
thereafter, simply because his interests have changed,
assume a contrary position.” Id. at 749; see, e.g.,
Jackson v. County of Los Angeles, 60 Cal. App. 4th 171,
181-83 (1997) (citing state and federal cases on
doctrine).
a. Courts contemplating judicial estoppel typically
consider three factors, all of which are satisfied in this
case. First, courts ask whether a party’s later position
was “clearly inconsistent with its earlier position.”
New Hampshire, 532 U.S. at 750 (internal quotation
marks omitted). In this litigation, the District has
repeatedly asserted that it is the “sole owner” of the
decreed water right, and farmers have “non-existent
water rights or ownership interests” in the District’s
water. Answer to Pet. for Rev. 8, 11, 12, 29, Abatti v.
Imperial Irrigation Dist., No. S264093 (Cal. 2020).
That is completely contrary to the arguments it made
to this Court in Bryant, where it asserted that:
•

The Ninth Circuit’s decision that “the landowner
has no vested right appurtenant to the land ...
conflicts not only with California law but also

22
with § 8 of the Reclamation Act of 1902[.]” Bryant
Pet. 2-3.
•

In California, “the Project Act’s mandate that
present perfected rights be satisfied requires that
... such rights be satisfied with respect to
individual landowners and their lands.” Id. at 17.

•

“The notion that the District alone is protected
against impairment of present perfected rights
and not the landowners who are the equitable
owners of those rights under the laws of
California is also in collision with § 8 of the
Reclamation Act of 1902[.]” Id.

•

“[T]he District is merely the trustee of water
rights for landowners, who are the beneficial
owners, and their beneficial interest is a
constitutionally protected property right which is
appurtenant to the land irrigated.” Bryant Pet’r
Br. 33.

•

“As a matter of federal law, § 8 of the Reclamation
Act of 1902 stipulates that rights to use of water
supplied through federal works shall be
appurtenant to the land irrigated, and § 3(d) of
the Project Act prescribes that the ‘covenants’ in
§ 13(c) ... shall ‘run with the land.’” Id.

•

“Article VIII [which protects present perfected
rights] was drafted specifically to protect
landowners in Imperial Valley.” Id. at 44.

•

The Ninth Circuit reasoned “that the District,
rather than the landowners, is the owner of the
present perfected rights. From this premise the
court concluded that the Secretary could satisfy
§ 6 by delivering all of the water subject to the

23
District’s present perfected rights to the District,
and that the District could then withhold water
from Excess lands and redistribute it to nonexcess lands without impairing present perfected
rights. This conclusion is wrong[.]” Id. at 50.
(citation omitted).
•

“Section 6 of the Project Act, in requiring the
‘satisfaction’ of present perfected rights, and
Article VIII of the Compact, in providing that
present perfected rights are ‘unimpaired,’
expressly determine … priority.” Bryant Reply
17.

•

“The doctrine of present perfected rights is … a
scheme which sets an order of priority in the
allocation of water under the Project Act” and “a
doctrine which confirms pre-existing property
rights unimpaired.” Id. at 18 (internal quotation
marks omitted).

•

“The landowners, as the equitable owners of the
present perfected rights, have a constitutionally
protected interest therein.” Id.

•

“The District, as the legal owner and trustee has
no power to take perfected rights from the
present owner of the lands to which they are
appurtenant and give them to other beneficiaries
or transfer their appurtenancy to other lands[.]”
Id. at 18-19.

The Court of Appeal insisted it was “not …
irreconcilable” that “the District emphasized
landowners’ rights in Bryant, but underscores its own
discretion and authority here.” App. 112a. That is not
a fair characterization of the District’s litigating

24
positions. But even if it were, the Court of Appeal
would be mistaken, for those positions are
diametrically opposed.
If the landowners have
perfected rights, then the District necessarily lacks
the discretion to redistribute their water to other
users. See Bryant Pet’r Br. 32-33, 50; Bryant Reply 17,
19, 20 (denying any discretion to “redistribute” water
and arguing that federal law determines the priority
of rights). The Court of Appeal itself acknowledged
that the “right to service” is “not an appurtenant water
right.” App. 30a. The District’s positions in these two
cases cannot be reconciled.
b. Next, courts applying judicial estoppel consider
whether a party “succeeded in persuading a court to
accept that party’s earlier position, so that judicial
acceptance of an inconsistent position in a later
proceeding would create the perception that either the
first or the second court was misled.” New Hampshire,
532 U.S. at 750 (internal quotation marks omitted).
That is true here. In Bryant, this Court accepted the
District’s argument that the “water right” under the
Reclamation Act was “equitably owned by”
landowners, not the District. 447 U.S. at 371.
The Court of Appeal did not (indeed, could not)
conclude otherwise. It instead equivocated that this
Court “appears to have rejected” any argument the
District made “for individual entitlement to a specific
proportion of water.” App. 112a. That is not correct,
as explained supra at pp. 17-18. And this Court
clearly accepted the District’s argument that the
individual landowners had actual, perfected rights
that were protected under federal law. Bryant, 447
U.S. at 371.

25
c. Finally, courts applying the doctrine of judicial
estoppel ask “whether the party seeking to assert an
inconsistent position would derive an unfair
advantage or impose an unfair detriment on the
opposing party if not estopped.” New Hampshire, 532
U.S. at 751. In the previous litigation, the District
recognized and advocated for farmers’ individual
water rights. Now, the District denies those same
rights, to the detriment of farmers who have relied on
them for decades in cultivating and financing their
lands. See infra Part III.
3. Perhaps recognizing the flaws in its analysis, the
Court of Appeal added that, “even if the elements of
judicial estoppel were satisfied,” the doctrine “is an
extraordinary remedy that should be applied with
caution,” and stated that it saw “no basis for its
application here.” App. 112a. As explained above,
however, there is every reason to estop the District in
this case.
What is more, the ultimate decision whether the
doctrine of judicial estoppel should bind the District to
the representations it made to this Court should rest
with this Court. In Semtek International Inc. v.
Lockheed Martin Corp., 531 U.S. 497, 507 (2001), the
Court confirmed that “States cannot give [judgments
in a federal-question case] merely whatever effect they
would give their own judgments.” Rather, States must
“accord [those judgments] the effect that this Court
prescribes.” Id.; see Heck v. Humphrey, 512 U.S. 477,
488 n.9 (1994) (“State courts are bound to apply
federal rules in determining the preclusive effect of
federal-court decisions on issues of federal law.”); see
also Truck Ins. Exch. v. Mid-Continent Cas. Co., 320

26
S.W.3d 613, 620 n.5 (Tex. App. 2010) (“Texas courts
look to the law governing the previous proceeding
when considering a judicial estoppel claim[.]”).
As a result, the Court held in Semtek that “whether
a Federal judgment has been given due force and effect
in the state court is a Federal question reviewable by
this court, which will determine for itself whether
such judgment has been given due weight or
otherwise.” Semtek, 531 U.S. at 507 (citation omitted);
see id. (stating that “this Court ... has the last word on
the claim-preclusive effect of all federal judgments”).
In this case, the state court failed to give “due force
and effect” to the representations the District made to
the Court in Bryant. Semtek, 531 U.S. at 507. The
Court of Appeal was unwilling to “protect the
integrity” of the federal “judicial process.” New
Hampshire, 532 U.S. at 749. But this Court has the
authority to protect its own process. It should grant
the petition to hold the District to the representations
it made in Bryant.
C. The Opinion Below Conflicts With Other
Decisions of This Court Holding That
Landowners, Not the Government, Own
Water Rights Under § 8 of the Reclamation
Act.
The California Court of Appeal’s decision is also in
conflict with several other decisions of this Court that
rely on § 8 of the Reclamation Act to hold that water
rights are owned, not by the federal government by
virtue of its involvement in a reclamation project, but
by the landowner who actually puts the water to
beneficial use. Ickes v. Fox, 300 U.S. 82 (1937);
Nebraska v. Wyoming, 325 U.S. 589 (1945); Nevada v.

27
United States, 463 U.S. 110 (1983).
First, in Ickes v. Fox, landowners in Washington
state challenged decisions made by the Secretary of
the Interior to reduce water delivery. The Secretary
argued that the suits must be dismissed because the
United States owned the water rights, was an
indispensable party, and had not consented to suit.
300 U.S. at 94-95, 96. This Court rejected that
argument:
Appropriation was made not for the use of the
government, but, under the Reclamation Act, for
the use of the landowners; and by the terms of the
law and of the contract already referred to, the
water rights became the property of the landowners,
wholly distinct from the property right of the
government in the irrigation works.
Id. at 95 (emphases added); see id. at 95-96
(recounting “long … established law” that “the right to
the use of water can be acquired only by prior
appropriation for a beneficial use; and that such right
when thus obtained is a property right, which, when
acquired for irrigation, becomes, by state law” and “by
express provision of the Reclamation Act … part and
parcel of the land upon which it is applied”).
The second case in the trilogy, Nebraska v. Wyoming,
was an original action for equitable apportionment of
the North Platte River. There, the Court rejected the
United States’ contention that “it owns all the
unappropriated water in the river.” 325 U.S. at 611.
The Court explained that “[t]o allocate those water
rights to the United States would be to disregard the
rights of the landowners,” id. at 616, and that:

28
The water right is acquired by perfecting an
appropriation, i.e., by an actual diversion followed
by an application within a reasonable time of the
water to a beneficial use. Indeed § 8 of the
Reclamation Act provides as we have seen that “the
right to the use of water acquired under the
provisions of this Act shall be appurtenant to the
land irrigated, and beneficial use shall be the basis,
the measure, and the limit of the right.”
Id. at 614 (citations omitted).
Finally, Nevada v. United States involved a suit by
the United States seeking additional rights in the
Truckee River for an Indian tribe. The government
argued that it could reallocate water decreed to the
United States for reclamation uses to the tribe. 463
U.S. at 121. This Court concluded:
[T]he Government is completely mistaken if it
believes that the water rights confirmed to it … for
use in irrigating lands within the Newlands
Reclamation Project were like so many bushels of
wheat, to be bartered, sold, or shifted about as the
Government might see fit. Once these lands were
acquired by settlers in the Project, the
Government’s “ownership” of the water rights was
at most nominal; the beneficial interest in the
rights confirmed to the Government resided in the
owners of the land within the Project to which
these water rights became appurtenant upon the
application of Project water to the land.
Id. at 126.
Here, the aptly named Imperial District has
asserted the same sort of sweeping reallocation power
that the Court rejected in Nevada as inconsistent

29
“with half a century of decided case law relating to the
Reclamation Act of 1902 and water rights.” Id. at 121.
The Court should grant the petition to resolve that
conflict.
II.

The Opinion Below Conflicts With Other
Appellate
and
Regulatory
Decisions,
Including Precedent From the Home
Circuit of the State Court Below.

Given this Court’s consistent proclamations on the
subject, it is unsurprising that the Court of Appeal’s
decision conflicts with additional appellate and
regulatory decisions, including the law of the federal
circuit in which the court below is located. The Court
should grant the petition and resolve those conflicts.
A. Appellate Decisions
To begin, the decision below conflicts with decisions
from the Ninth Circuit and the New Mexico Supreme
Court.
1. First, the decision of the California Court of
Appeal conflicts with Truckee-Carson Irrigation
District v. Secretary of the Department of the Interior,
742 F.2d 527 (9th Cir. 1984), one of the Ninth Circuit’s
“landmark opinions.”4 In that case, the Ninth Circuit
rejected the claim of Nevada’s Truckee-Carson
Irrigation District (“TCID”) that the federal
government deprived it of property without due
process of law by terminating the TCID’s contract to
manage the Newlands reclamation project. Id. at 530.
The Ninth Circuit explained that “[o]nly those who
would have lost property, the owners of land with
4

United States v. Bell, 602 F.3d 1074, 1078 (9th Cir. 2010).

30
water rights, could claim a deprivation of property
without due process.” Id. at 531. “As a water district
responsible for managing a reclamation project, TCID
does not directly own any water rights. Rather, the
landowners within the service area irrigated by the
Newlands Project own water rights.” Id. at 530
(emphases added).
So too here. Under § 8 of the Reclamation Act, the
water rights are appurtenant to the land and owned
by the Valley farmers. In conflict with the Ninth
Circuit, the Court of Appeal held that these farmers
have only a so-called right to “water service”
modifiable at the District’s discretion. App. 5a, 38a39a. As a result of this conflict, farmers’ water rights
in California depend entirely on whether they are
resolved in state or federal court. Such uncertainty is
untenable.
2. Next, the decision below conflicts with the New
Mexico Supreme Court’s decision in Holguin v.
Elephant Butte Irrigation District, 575 P.2d 88 (N.M.
1977), a case in which landowners sued New Mexico’s
Elephant Butte Irrigation District (“EBID”) to
establish their water rights. The EBID moved to
dismiss on the ground that the United States was an
indispensable party because it owned the water. Id.
at 89. The New Mexico Supreme Court rejected that
claim and held the water rights were owned by
landowners, not the federal government:
The Reclamation Act declared that irrigation water
is appurtenant to the land which is being irrigated
and states that “beneficial use shall be the basis,
the measure, and the limit of the right.” 43 U.S.C.
§ 372 (1970). The same language is employed in

31
N.M. Const. art. XVI, § 3, and in § 75-1-2, N.M.S.A.
1953. The water was not appropriated for the use
of the government but for the use of the
landowners. The government was only a carrier or
a trustee for the owners.
Id. at 91 (citing Ickes v. Fox, 300 U.S. 82 (1937);
Nebraska v. Wyoming, 325 U.S. 589 (1945)).
B. The Decision Below Conflicts With the
Position Taken by Officials in the
Department of the Interior.
The decision below also conflicts with the position
taken by solicitors in the Department of the Interior.
These solicitors rejected the suggestion that rights to
other project waters were likely “held by the irrigation
districts.” Memorandum from David Nawi & Lynn
Peterson, Regional Solicitors, U.S. Dep’t of Interior, to
Regional Director, U.S. Bureau of Reclamation, MidPacific Region, Sacramento, Cal., et al. 10 (Jan. 9,
1997). Instead, they concluded:
Unlike the United States and individual water
users, in the typical case irrigation districts hold
neither a legal nor beneficial interest in the water
right. They have no property interest in the water,
nor have they in their own right diverted the water
to storage. Moreover, the districts have not put the
water to beneficial use and thus do not hold an
interest in the water right.
Id. (citation omitted). That opinion, with its “power to
persuade,” United States v. Mead Corp., 533 U. S. 218,
235 (2001) (citation omitted), correctly applies this
Court’s precedent, discussed above. The Court of
Appeal did not. The Court should grant the petition
to resolve the conflict between that court, other federal

32
and state appellate courts, and the office of the
Solicitor of the Interior.
III. Whether Farmers in the Imperial Valley
Possess Water Rights Is an Exceptionally
Important Question.
Finally, the Court’s review in this case is
warranted—regardless of any conflict—given the
exceptional importance of the questions presented.
Indeed, in Bryant, the Court affirmed that it “granted
the petitions for certiorari” “[b]ecause of the
importance of these cases.” 447 U.S. at 366. As the
Court subsequently stressed, “[c]ertainty of rights is
particularly important with respect to water rights in
the Western United States.” Arizona v. California,
460 U.S. 605, 620 (1983).
The decision below negates those rights and destroys
the value of approximately 438,000 acres of land. See
Bryant, 447 U.S. at 378 (noting that “the District was
irrigating approximately 14,000 more acres than the
424,145 acres under irrigation in 1929”). The District
has previously acknowledged that “the value of the
water right … is all that gives worth to land in the
desert.” Bryant Reply 9; see id. at 33 (estimating that
lands stripped of water right would “los[e] 96 to 98
percent of [their] value”). Hundreds of farms are
affected by the Court of Appeal’s decision. See NAT’L
AGRIC. STATISTICS SERV., U.S. DEP’T OF AGRIC., [2017]
1 CENSUS OF AGRICULTURE, CALIFORNIA 246 (Apr.
2019) (identifying 396 farms in Imperial Valley).
Water rights in the Imperial Valley support over $2
billion in agriculture and related businesses, all of

33
which is at risk under the Court of Appeal’s decision.5
Furthermore, Imperial Valley agriculture is essential
to the nation’s food supply. “About two-thirds of the
vegetables eaten nationwide during winter are grown
in Imperial County.” Robin Meadows, Research News:
UC Desert Research and Extension Center Celebrates
100 Years, CALIFORNIA AGRICULTURE, No. 4, Oct.-Dec.
2012, at 122.
The problems associated with the decision below are
not confined to the Valley, moreover. The California
Attorney General also recognized the importance of
this case. He filed an amicus brief arguing that “the
trial court erred in looking to [Bryant], a federal case
involving federal law,” and asserted that the
determination of perfected waters rights is “purely a
question of state law.” State Water Resources Control
Board Amicus Br. 12. Irrigation districts have made
similar arguments in other cases. See Motion to
Dismiss for San Luis & Delta-Mendota Water
Authority, et al. 20, City of Fresno v. United States,
148 Fed. Cl. 19 (2020) (No. 1:16-cv-01276). At least
one federal district court has accepted such a claim.
See Nelson v. Belle Fourche Irrigation Dist., 845 F.
Supp. 1361, 1365-67 (D.S.D. 1994) (holding rancher
lacked due process claim arising from irrigation
district’s failure to provide water because he lacked a
protected property right, and concluding that state
law, not § 8 of the Reclamation Act, governed the
5 See OFF. OF THE AGRIC. COMM’R SEALER OF WEIGHTS &
MEASURES, IMPERIAL CTY. CAL., 2018 AGRIC. CROP & LIVESTOCK
REP. 21 (Sep. 24, 2019), available at https://agcom.
imperialcounty.org/wp-content/uploads/2020/02/2018_Imperial_
County_Crop_and_Livestock_Report.pdf.

34
issue). But see Reed D. Benson, Whose Water Is It?
Private Rights and Public Authority Over Reclamation
Project Water, 16 VA. ENVTL. L.J. 363, 388-89 (1997)
(criticizing Nelson because “Congress intended land
owners to be the beneficiaries of the reclamation
program” and suggesting “a state law purporting to
vest property rights in the [irrigation] district might
be inconsistent with congressional intent and
therefore invalid”).
However eager the states may be to exclude the
federal government from the regulation of water in the
West, Congress has made clear that federal regulation
governs federal reclamation projects.
This case
presents an excellent vehicle to consider those
federally protected rights. The Court is already
familiar with the reclamation project and lands
involved in the case, from prior litigation over the very
same rights.
California’s Attorney General has
already weighed in on the matter. And the Court of
Appeal flatly held that farmers have only “an
appurtenant right to service, not an appurtenant
water right,” App. 30a, despite the District having
previously argued the opposite before this very Court.
The Court should grant the petition to address this
exceptionally important issue and confirm—as it held
in Bryant—that farmers like petitioners have
federally protected water rights the District may not
ignore.
CONCLUSION
For the foregoing reasons, the petition for certiorari
should be granted.

35
Respectfully submitted,
H. CHRISTOPHER BARTOLOMUCCI
Counsel of Record
KATHRYN E. TARBERT
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
THEODORE A. CHESTER, JR.
MUSICK, PEELER & GARRETT LLP
624 South Grand Avenue, #2000
Los Angeles, CA 90017
Counsel for Petitioners
MARCH 2021

